                Department of Veterans Affairs
                Office of Inspector General


                  Office of Healthcare Inspections

Report No. 14-00916-218


 Community Based Outpatient Clinic 

  and Primary Care Clinic Reviews 

                 at 

 West Texas VA Health Care System 

         Big Spring, Texas 





July 23, 2014

                      Washington, DC 20420
To Report Suspected Wrongdoing in VA Programs and Operations
                    Telephone: 1-800-488-8244
                   E-Mail: vaoighotline@va.gov
         (Hotline Information: www.va.gov/oig/hotline)
                        CBOC and PCC Reviews at West Texas VA Health Care System, Big Spring, TX



                                            Glossary
                       AUD        alcohol use disorder
                       CBOC       community based outpatient clinic
                       DWHP       designated women’s health provider
                       EHR        electronic health record
                       EOC        environment of care
                       FY         fiscal year
                       IT         information technology
                       MH         mental health
                       MM         medication management
                       NM         not met
                       OIG        Office of Inspector General
                       PACT       Patient Aligned Care Teams
                       PCC        primary care clinic
                       RN         registered nurse
                       VHA        Veterans Health Administration
                       VISN       Veterans Integrated Service Network
                       WH         women’s health




VA OIG Office of Healthcare Inspections
                              CBOC and PCC Reviews at West Texas VA Health Care System, Big Spring, TX



                                           Table of Contents 

                                                                                                                           Page 

Executive Summary ...................................................................................................            i


Objectives, Scope, and Methodology.......................................................................                        1

  Objectives ...............................................................................................................     1

  Scope......................................................................................................................    1

  Methodology ...........................................................................................................        1


Results and Recommendations ................................................................................ 3

  EOC ........................................................................................................................ 3

  AUD ........................................................................................................................ 7

  MM .......................................................................................................................... 9

  DWHP Proficiency .................................................................................................. 10


Appendixes
  A. CBOC Profiles and Services Provided ..............................................................                         11

  B. PACT Compass Metrics ....................................................................................                  13

  C. VISN Director Comments ..................................................................................                  17

  D. Facility Director Comments ...............................................................................                 18

  E. OIG Contact and Staff Acknowledgments .........................................................                            26

  F. Report Distribution .............................................................................................          27

  G. Endnotes ...........................................................................................................       28





VA OIG Office of Healthcare Inspections
                        CBOC and PCC Reviews at West Texas VA Health Care System, Big Spring, TX



                                Executive Summary 

Review Purpose: The purpose of the review was to evaluate selected patient care
activities to determine whether the community based outpatient clinics (CBOCs) and
primary care clinics (PCCs) provide safe, consistent, and high-quality health care for our
veterans. We conducted site visits during the week of May 13, 2014, at the following
CBOCs which are under the oversight of the West Texas VA Health Care System and
Veterans Integrated Service Network 18:

   	 Abilene CBOC, Abilene, TX

   	 Fort Stockton CBOC, Fort Stockton, TX

   	 Hobbs CBOC, Hobbs, NM

   	 San Angelo CBOC, San Angelo, TX

Review Results: We conducted four focused reviews and had no findings for the
Designated Women’s Health Providers’ Proficiency review. However, we made
recommendations in the following three review areas:

Environment of Care. Ensure that:

   	 The external signage clearly identifies the building as a VA CBOC at the Fort
      Stockton CBOC.

   	 Managers maintain a clean and functioning environment of care at the Hobbs
      CBOC.

   	 Processes are improved to ensure that the review of hazardous materials
      inventory occurs twice within a 12-month period at the Abilene, Fort Stockton,
      Hobbs, and San Angelo CBOCs.

   	 Managers ensure staff can access the electronic version of the chemical
      inventory at the Abilene and San Angelo CBOCs.

   	 Processes are improved to ensure the tracking of chemical inventories at the
      Abilene, Fort Stockton, Hobbs, and San Angelo CBOCs.

   	 The effectiveness of the panic alarm system is evaluated at the Abilene, Fort
      Stockton, Hobbs, and San Angelo CBOCs.

   	 A separate room is provided to store medical (infectious) waste at the Hobbs
      CBOC.

   	 Fire drills are performed every 12 months at the Abilene, Fort Stockton, Hobbs,
      and San Angelo CBOCs.


VA OIG Office of Healthcare Inspections                                                       i
                        CBOC and PCC Reviews at West Texas VA Health Care System, Big Spring, TX


   	 Managers ensure that personally identifiable information is protected by securing
      laboratory specimens during transport from the Abilene and San Angelo CBOCs
      to the parent facility.

   	 The door to the examination room designated for women veterans is equipped
      with electronic or manual locks at the Fort Stockton CBOC.

   	 Processes are strengthened to ensure women veterans can access gender-
      specific restrooms without entering public areas at the Fort Stockton CBOC.

   	 The information technology server closets at the Abilene, Fort Stockton, Hobbs
      and San Angelo CBOCs are maintained according to information technology
      safety and security standards.

   	 The parent facility document Emergency Management Preparedness-specific
      training completed for the West Texas VA Health Care System CBOC clinical
      providers.

Alcohol Use Disorder. Ensure that CBOC/PCC:

   	 Staff consistently complete diagnostic assessments for patients with a positive
      alcohol screen.

   	 Staff provide education and counseling for patients with positive alcohol screens
      and drinking alcohol above National Institute on Alcohol Abuse and Alcoholism
      limits.

   	 Staff consistently document the offer of further treatment to patients diagnosed
      with alcohol dependence.

   	 Managers ensure that patients with excessive persistent alcohol use receive brief
      treatment or are evaluated by a specialty provider within 2 weeks of the
      screening.

   	 Registered Nurse Care Managers receive health coaching training within
      12 months of appointment to Patient Aligned Care Teams.

Medication Management. Ensure that CBOC/PCC staff:

   	 Document that medication reconciliation was completed at each episode of care
      where the newly prescribed flouoroquinolone was administered, prescribed, or
      modified.

   	 Provide medication counseling/education as required.

   	 Document the evaluation of patient’s level of understanding for the medication
      education.



VA OIG Office of Healthcare Inspections                                                       ii
                        CBOC and PCC Reviews at West Texas VA Health Care System, Big Spring, TX


Comments
The VISN and Facility Directors agreed with the CBOC and PCC review findings and
recommendations and provided acceptable improvement plans. (See Appendixes C
and D, pages 17–25, for the full text of the Directors’ comments.) We will follow up on
the planned actions for the open recommendations until they are completed.
 
 
 
 
 

                                                         JOHN D. DAIGH, JR., M.D. 

                                                        Assistant Inspector General for 

                                                           Healthcare Inspections





VA OIG Office of Healthcare Inspections                                                       iii
                            CBOC and PCC Reviews at West Texas VA Health Care System, Big Spring, TX



                    Objectives, Scope, and Methodology 

Objectives
The CBOC and PCC reviews are an element of the OIG’s efforts to ensure that our
Nation’s veterans receive high-quality VA health care services. As such, the CBOC and
PCC reviews are recurring evaluations of selected primary care operations that focus on
patient care quality and the EOC. In general, our objectives are to:

      	   Determine whether the CBOCs are compliant with EOC requirements.

      	   Determine whether CBOCs/PCCs are compliant with VHA requirements in the
           care of patients with AUD.

      	   Determine compliance with requirements for the clinical oversight and patient
           education of fluoroquinolones for outpatients.

      	   Evaluate if processes are in place for DWHPs to maintain proficiency in WH.

Scope
To evaluate for compliance with requirements related to patient care quality and the
EOC, we conducted onsite inspections, reviewed clinical and administrative records,
and discussed processes and validated findings with managers and employees. The
review covered the following four activities:

      	   EOC

      	   AUD

      	   MM

      	   DWHP Proficiency

The scope of this review is limited to the established objectives. Issues and concerns
that come to our attention that are outside the scope of this standardized inspection will
be reviewed and referred accordingly.

Methodology
The onsite EOC inspections were only conducted at randomly selected CBOCs that had
not been previously inspected.1 Details of the targeted study populations for the AUD,
MM, and DWHP Proficiency focused reviews are noted in Table 1.




1
    Includes 93 CBOCs in operation before March 31, 2013.


VA OIG Office of Healthcare Inspections                                                           1
                           CBOC and PCC Reviews at West Texas VA Health Care System, Big Spring, TX


Table 1. CBOC/PCC Focused Reviews and Study Populations

      Review Topic                                    Study Population
          AUD                  All CBOC and PCC patients screened within the study period
                               of July 1, 2012, through June 30, 2013, and who had a positive
                               AUDIT-C score2 and all providers and RN Care Managers
                               assigned to PACT prior to October 1, 2012.
            MM                 All outpatients with an original prescription ordered for one of
                               the three selected fluoroquinolones from July 1, 2012, through
                               June 30, 2013.
    DWHP Proficiencies         All WH PCPs designated as DWHPs as of October 1, 2012,
                               and who remained as DWHPs until September 30, 2013.

In this report, we make recommendations for improvement. Recommendations pertain
to issues that are significant enough to be monitored by the OIG until corrective actions
are implemented.

The review was done in accordance with OIG standard operating procedures for CBOC
and PCC reviews.




2
 The AUDIT-C is a brief alcohol screen that reliably identifies patients who are hazardous drinkers or have active
alcohol use disorders. Scores range from 0–12.


VA OIG Office of Healthcare Inspections                                                                              2
                                 CBOC and PCC Reviews at West Texas VA Health Care System, Big Spring, TX



                          Results and Recommendations 

EOC
The purpose of this review was to evaluate whether CBOC managers have established and
maintained a safe and clean EOC as required.a

We reviewed relevant documents and conducted physical inspections of the Abilene, Fort
Stockton, Hobbs, and San Angelo CBOCs. The table below shows the areas reviewed for this
topic.  The areas marked as NM did not meet applicable requirements and needed
improvement.
Table 2. EOC

NM                    Areas Reviewed                                            Findings
 X     The CBOC’s location is clearly identifiable       The Fort Stockton CBOC’s location was not
       from the street as a VA CBOC.                     clearly identifiable from the street as a VA
                                                         CBOC by the address provided by the parent
                                                         facility.
       The CBOC has interior signage available that
       clearly identifies the route to and location of
       the clinic entrance.
       The CBOC is Americans with Disabilities Act
       accessible.
       The furnishings are clean and in good repair.
 X     The CBOC is clean and in good repair.             Hallway carpeting with large punctures, wall
                                                         penetrations in the tele-health and examination
                                                         rooms, and stained ceiling tiles adjacent to
                                                         insulated piping with dust and debris in the IT
                                                         closet were noted at the Hobbs CBOC.
 X     The CBOC maintains a written, current             The CBOCs’ inventory of hazardous materials at
       inventory of hazardous materials and waste        the Abilene, Fort Stockton, Hobbs, and San
       that it uses, stores, or generates.               Angelo CBOCs were not reviewed for accuracy
                                                         twice within the prior 12 months.
                                                         The staff at the Abilene and San Angelo CBOCs
                                                         could not demonstrate how to access the
                                                         electronic version of the inventory without
                                                         coaching.
                                                         Chemical inventories were not tracked at the
                                                         Abilene, Fort Stockton, Hobbs, and San Angelo
                                                         CBOCs with the VHA Center for Engineering
                                                         and Occupational Safety and Health-developed
                                                         chemical inventory tracking system or in a
                                                         database that can be downloaded to a
                                                         Department-wide chemical inventory tracking
                                                         system.




VA OIG Office of Healthcare Inspections                                                                  3
                                 CBOC and PCC Reviews at West Texas VA Health Care System, Big Spring, TX


NM              Areas Reviewed (continued)                                   Findings
 X     An alarm system and/or panic buttons are           Alarm/panic buttons at the Abilene, Fort
       installed and tested in high-risk areas (e.g.,     Stockton, Hobbs and San Angelo CBOCs were
       MH clinic).                                        not tested.
       Alcohol hand wash or soap dispenser and
       sink are available in the examination rooms.
       Sharps containers are secured.
       Safety needle devices are available.
 X     The CBOC has a separate storage room for           There was not a separate storage room for
       storing medical (infectious) waste.                storing medical (infectious) waste at the Hobbs
                                                          CBOC.
 X     The CBOC conducts fire drills at least every       There was no evidence of fire drills occurring at
       12 months.                                         least every 12 months at the Abilene, Fort
                                                          Stockton, Hobbs, and San Angelo CBOCs.
       Means of egress from the building are
       unobstructed.
       Access to fire alarm pull stations is
       unobstructed.
       Access to fire extinguishers is unobstructed.
       The CBOC has signs identifying the locations
       of fire extinguishers.
       Exit signs are visible from any direction.
       No expired medications were noted during the
       onsite visit.
       All medications are secured from
       unauthorized access.
 X     Personally identifiable information is protected   At the Abilene and San Angelo CBOCs,
       on laboratory specimens during transport so        personally identifiable information was not
       that patient privacy is maintained.                protected on laboratory specimens during
                                                          transport until one week prior to the OIG’s onsite
                                                          inspection.
       Adequate privacy is provided to patients in
       examination rooms.
       Documents containing patient-identifiable
       information are not lying around, visible, or
       unsecured.
       Window coverings provide privacy.
       The CBOC has a designated examination
       room for women veterans.
 X     Adequate privacy is provided to women              The examination room designated for women
       veterans in the examination room.                  veterans at the Fort Stockton CBOC was not
                                                          equipped with either an electronic or manual
                                                          door lock.
                                                          Gowned women veterans at the Fort Stockton
                                                          CBOC cannot access gender-specific restrooms
                                                          without entering public areas.




VA OIG Office of Healthcare Inspections                                                                       4
                                 CBOC and PCC Reviews at West Texas VA Health Care System, Big Spring, TX


NM             Areas Reviewed (continued)                                     Findings
 X     The IT network room/server closet is locked.       Access to the IT network room/server closet at
                                                          the Abilene, Fort Stockton, Hobbs, and San
                                                          Angelo CBOCs were not restricted to personnel
                                                          authorized by OIT.
                                                          Access to the IT network room/server closet at
                                                          the Hobbs, Fort Stockton, and San Angelo
                                                          CBOCs was not documented.
       All computer screens are locked when not in
       use.
       Staff use privacy screens on monitors to
       prevent unauthorized viewing in high-traffic
       areas.
       EOC rounds are conducted semi-annually (at
       least twice in a 12-month period) and
       deficiencies are reported to and tracked by the
       EOC Committee until resolution.
       The CBOC has an automated external
       defibrillator.
       Safety inspections are performed on the
       CBOC medical equipment in accordance with
       Joint Commission standards.
 X     The parent facility includes the CBOC in           The parent facility did not document Emergency
       required education, training, planning, and        Management Plan-specific training for 2 of 16
       participation leading up to the annual disaster    CBOC clinical providers.
       exercise.
       The parent facility’s Emergency Management
       Committee evaluates CBOC emergency
       preparedness activities, participation in annual
       disaster exercise, and staff training/education
       relating to emergency preparedness
       requirements.

Recommendations

1. We recommended that external signage clearly identifies the building as a VA CBOC at the
Fort Stockton CBOC.

2. We recommended that managers maintain a clean and functioning environment of care at
the Hobbs CBOC.

3. We recommended that processes are improved to ensure review of the hazardous materials
inventory occurs twice within a 12-month period at the Abilene, Fort Stockton, Hobbs, and San
Angelo CBOCs.

4. We recommended that managers ensure staff can access the electronic version of the
chemical inventory at the Abilene and San Angelo CBOCs.




VA OIG Office of Healthcare Inspections                                                                    5
                                 CBOC and PCC Reviews at West Texas VA Health Care System, Big Spring, TX


5. We recommended that processes are improved to ensure the tracking of chemical
inventories at the Abilene, Fort Stockton, Hobbs, and San Angelo CBOCs.

6. We recommended that the effectiveness of the panic alarm system is evaluated at the
Abilene, Fort Stockton, Hobbs, and San Angelo CBOCs.

7. We recommended that a separate room is provided to store medical (infectious) waste at the
Hobbs CBOC.

8. We recommended that fire drills are performed every 12 months at the Abilene, Fort
Stockton, Hobbs, and San Angelo CBOCs.

9. We recommended that managers ensure that personally identifiable information is protected
by securing laboratory specimens during transport from the Abilene and San Angelo CBOCs to
the parent facility.

10. We recommended that the door to the examination room designated for women veterans is
equipped with electronic or manual locks at the Fort Stockton CBOC.

11. We recommended processes are strengthened to ensure women veterans can access
gender-specific restrooms without entering public areas at the Fort Stockton CBOC.

12. We recommended that the information technology server closets at the Abilene, Fort
Stockton, Hobbs, and San Angelo CBOCs are maintained according to information technology
safety and security standards.

13.      We recommended that the parent facility document Emergency Management
Preparedness-specific training completed by the West Texas VA Health Care System CBOC
clinical providers.




VA OIG Office of Healthcare Inspections                                                                6
                                 CBOC and PCC Reviews at West Texas VA Health Care System, Big Spring, TX


AUD
The purpose of this review was to determine whether the facility’s CBOCs and PCCs complied
with selected alcohol use screening and treatment requirements.b

We reviewed relevant documents. We also reviewed 39 EHRs and validated findings with key
managers and staff. The table below shows the areas reviewed for this topic. The areas
marked as NM did not meet applicable requirements and needed improvement.

Table 3. AUD

NM                    Areas Reviewed                                          Findings
       Alcohol use screenings are completed during
       new patient encounters, and at least annually.
 X     Diagnostic assessments are completed for           Staff did not complete diagnostic assessments
       patients with a positive alcohol screen.           for 18 (46 percent) of 39 patients who had
                                                          positive alcohol use screens.
 X     Education and counseling about drinking            Staff did not provide education and counseling
       levels and adverse consequences of heavy           for 11 (28 percent) of 39 patients who had
       drinking are provided for patients with positive   positive alcohol use screens.
       alcohol screens and drinking levels above
       National Institute on Alcohol Abuse and
       Alcoholism guidelines.
 X     Documentation reflects the offer of further        We did not find documentation of the offer of
       treatment for patients diagnosed with alcohol      further treatment for four of eight patients
       dependence.                                        diagnosed with alcohol dependence.
       For patients with AUD who decline referral to
       specialty care, CBOC/PCC staff monitored
       them and their alcohol use.
 X     Counseling, education, and brief treatments        Treatment was not provided within 2 weeks of
       for AUD are provided within 2 weeks of             positive screening for 7 of 14 patients.
       positive screening.
       CBOC/PCC RN Care Managers have
       received MI training within 12 months of
       appointment to PACT.
 X     CBOC/PCC RN Care Managers have                     We found that three of six RN Care Managers
       received VHA National Center for Health            did not receive health coaching training within
       Promotion and Disease Prevention-approved          12 months of appointment to PACT.
       health coaching training (most likely TEACH
       for Success) within 12 months of appointment
       to PACT.
       The facility complied with any additional
       elements required by VHA or local policy.

Recommendations

14. We recommended that CBOC/Primary Care Clinic staff consistently complete diagnostic
assessments for patients with a positive alcohol screen.




VA OIG Office of Healthcare Inspections                                                                     7
                                 CBOC and PCC Reviews at West Texas VA Health Care System, Big Spring, TX


15. We recommended that CBOC/Primary Care Clinic staff provide education and counseling
for patients with positive alcohol screens and drinking alcohol above National Institute on
Alcohol Abuse and Alcoholism limits.

16. We recommended that CBOC/Primary Care Clinic staff consistently document the offer of
further treatment to patients diagnosed with alcohol dependence.

17. We recommended that managers ensure that patients with excessive persistent alcohol use
receive brief treatment or are evaluated by a specialty provider within 2 weeks of the screening.

18. We recommended that CBOC/Primary Care Clinic Registered Nurse Care Managers
receive health coaching training within 12 months of appointment to Patient Aligned Care
Teams.




VA OIG Office of Healthcare Inspections                                                                8
                                 CBOC and PCC Reviews at West Texas VA Health Care System, Big Spring, TX


MM
The purpose of this review was to determine whether appropriate clinical oversight and
education were provided to outpatients prescribed oral fluoroquinolone antibiotics.c

We reviewed relevant documents. We also reviewed 39 EHRs and validated findings with key
managers and staff. The table below shows the areas reviewed for this topic. The areas
marked as NM did not meet applicable requirements and needed improvement.

Table 4. Fluoroquinolones

NM                     Areas Reviewed                                         Findings
 X     Clinicians documented the medication              We did not find documentation that medication
       reconciliation process that included the          reconciliation included the newly prescribed
       fluoroquinolone.                                  fluoroquinolone in 5 (13 percent) of 39 patient
                                                         EHRs.
       Written information on the patient’s prescribed
       medications was provided at the end of the
       outpatient encounter.
 X     Medication counseling/education for the           We did not find documentation of medication
       fluoroquinolone was documented in the             counseling that included the fluoroquinolone in 4
       patients’ EHRs.                                   (10 percent) of 39 patient EHRs.
 X     Clinicians documented the evaluation of each      Clinicians did not document the level of
       patient’s level of understanding for the          understanding for 8 (20 percent) of 39 patients.
       education provided.
       The facility complied with local policy.

Recommendations

19. We recommended that staff document that medication reconciliation was completed at each
episode of care where the newly prescribed fluoroquinolone was administered, prescribed, or
modified.

20. We recommended that staff provide medication counseling/education as required.

21. We recommended that staff document the evaluation of patient’s level of understanding for
the medication education.




VA OIG Office of Healthcare Inspections                                                                      9
                                 CBOC and PCC Reviews at West Texas VA Health Care System, Big Spring, TX


DWHP Proficiency
The purpose of this review was to determine whether the facility’s CBOCs and PCCs complied
with selected DWHP proficiency requirements.d

We reviewed the facility self-assessment, VHA and local policies, Primary Care Management
Module data, and supporting documentation for DWHPs’ proficiencies. The table below shows
the areas reviewed for this topic. The facility generally met requirements. We made no
recommendations.

Table 5. DWHP Proficiency

NM                    Areas Reviewed                                       Findings
       CBOC and PCC DWHPs maintained
       proficiency requirements.
       CBOC and PCC DWHPs were designated
       with the WH indicator in the Primary Care
       Management Module.




VA OIG Office of Healthcare Inspections                                                               10
                                                                        CBOC and PCC Reviews at West Texas VA Health Care System, Big Spring, TX
                                                                                                                                    Appendix A


                                                                     CBOC Profiles 

This review evaluates the quality of care provided to veterans at all of the CBOCs under the parent facility’s oversight.3
The table below provides information relative to each of the CBOCs.

                                                                                      Uniques4                                     Encounters4

                               Station                    CBOC
      Location       State                 Locality5                    MH7         PC8       Other9       All        MH7         PC8       Other9        All
                                  #                        Size6
    Abilene         TX        519HC       Urban         Mid-Size       1,115       3,982       3,778      4,841       5,532     10,816      15,464     31,812
    Odessa          TX        519GA       Urban         Mid-Size       1,157       2,988       2,104      3,702       4,141      7,476       5,672     17,289
    San Angelo      TX        519HF       Urban         Mid-Size         699       2,367       1,702      2,569       5,150      6,613       6,563     18,326
    Hobbs           NM        519GB       Rural         Small            275         870         618        997       1,149      3,061       2,588      6,798
                                          Highly
    Fort Stockton   TX        519GD       Rural         Small                 0      210           90        227            0       394         160        554
    Stamford        TX        519HD       Rural         Small                 0      118            1        118            0       281           1        282




3
  Includes all CBOCs in operation before March 31, 2013. 

4
  Unique patients and Total Encounters – Source: MedSAS outpatient files; completed outpatient appointments indicated by a valid stop code during the 

October 1, 2012, through September 30, 2013, timeframe at the specified CBOC.

5
  http://vaww.pssg.med.va.gov/PSSG/DVDC/FY2013_Q1_VAST.xlsx

6
  Based on the number of unique patients seen as defined by VHA Handbook 1160.01, Uniform Mental Health Services in VA Medical Centers and Clinics, 

September 11, 2008, the size of the CBOC facility is categorized as very large (> 10,000), large (5,000-10,000), mid-size (1,500-5,000), or small (< 1,500).

7
  Mental Health includes stop codes in the 500 series, excluding 531 and 563, in the primary position. 

8
  Primary Care includes the stop code list in the primary position: 323 – Primary Care; 322 – Women’s Clinic; 348 – Primary Care Group; 350 – Geriatric 

Primary Care; 531 – MH Primary Care Team-Individual; 563 – MH Primary Care Team-Group; 170 – Home Based Primary Care (HBPC) Physician. 

9
  All other non-Primary Care and non-MH stop codes in the primary position.



VA OIG Office of Healthcare Inspections                                                                                                                         11
                           CBOC and PCC Reviews at West Texas VA Health Care System, Big Spring, TX


                                   CBOC Services Provided 

In addition to primary care integrated with WH and MH care, the CBOCs provide various
specialty care, ancillary, and tele-health services. The following table lists the services
provided at each CBOC.10

                                   Specialty Care                                                Tele-Health
              CBOC                                              Ancillary Services12
                                     Services11                                                  Services13
    Abilene                        Opthalmology                     Pharmacy                 Tele Primary Care
                                                                    Audiology
                                                                   Social Work
                                                                  Rehabilitation
                                                                     Nutrition
                                                                 Diabetic Retinal
                                                                    Screening
    Odessa                                ---                       Pharmacy                 Tele Primary Care
                                                                 Diabetic Retinal
                                                                    Screening
    San Angelo                            ---                       Pharmacy                 Tele Primary Care
                                                                   Social Work
                                                                     Nutrition
    Hobbs                                 ---                       Pharmacy                 Tele Primary Care
    Fort Stockton                         ---                            ---                 Tele Primary Care
    Stamford                              ---                            ---                          ---
 




10
   Source: MedSAS outpatient files; the denoted Specialty Care and Ancillary Services are limited to Primary Clinic 

Stops with a count ≥ 100 encounters during the October 1, 2012, through September 30, 2013, timeframe at the 

specified CBOC.

11
   Specialty Care Services refer to non-Primary Care and non-MH services provided by a physician.

12
   Ancillary Services refer to non-Primary Care and non-MH services that are not provided by a physician. 

13
   Tele-Health Services refer to services provided under the VA tele-health program (http://www.telehealth.va.gov/). 


VA OIG Office of Healthcare Inspections                                                                           12
                                                                      CBOC and PCC Reviews at West Texas VA Health Care System, Big Spring, TX
                                                                                                                                  Appendix B


                                                          PACT Compass Metrics




                                                                                                                                                                
Data Definition.e The average waiting time in days until the next third open appointment slot for completed primary care appointments in stop code 350.
Completed appointments in stop code 350 for this metric include completed appointments where a 350 stop code is in the primary position on the appointment
or one of the telephone stop codes is in the primary position, and 350 stop code is in the secondary position. The data is averaged from the national to the
division level.

VA OIG Office of Healthcare Inspections                                                                                                                  13
                                                                        CBOC and PCC Reviews at West Texas VA Health Care System, Big Spring, TX




Data Definition.e The percent of patients scheduled within 7 days of the desired date. Data source is the Wait Times Prospective Wait Times measures. The
total number of scheduled appointments for primary care-assigned patients in primary care clinics 322, 323 and 350. Data is collected twice a month on the 1st
and the 15th. Data reported is for the data pulled on the 15th of the month. There is no FY to date score for this measure. Blank cells indicate the absence of
reported data.


VA OIG Office of Healthcare Inspections                                                                                                                     14
                                                                     CBOC and PCC Reviews at West Texas VA Health Care System, Big Spring, TX




Data Definition.e This is a measure of where the patient receives his or her primary care and by whom. A low percentage is better. The formula is the total
VHA ER/Urgent Care/FEE ER Encounters WOP (including FEE ER visits) divided by the number of primary care encounters WOP with the patient’s assigned
primary care (or associate) provider plus the total VHA ER/Urgent Care/FEE ER Encounters (including FEE ER visits) WOP plus the number of primary care
encounters WOP with a provider other than the patient’s PCP/AP.


VA OIG Office of Healthcare Inspections                                                                                                                15
                                                                      CBOC and PCC Reviews at West Texas VA Health Care System, Big Spring, TX




Data Definition.e Total Discharges Included in 2-day Contact Post Discharge Ratio: The total VHA and FEE Inpatient Discharges for assigned primary care
patients for the reporting timeframe. Discharges resulting in death and discharges where a patient is readmitted within 2 days of discharge are excluded from
this metric. Blank cells indicate the absence of reported data.


VA OIG Office of Healthcare Inspections                                                                                                                   16
                        CBOC and PCC Reviews at West Texas VA Health Care System, Big Spring, TX
                                                                                    Appendix C
                              VISN Director Comments


               Department of
               Veterans Affairs                                  Memorandum


           Date:       July 2, 2014

          From:        Interim Director, VA Southwest Health Care Network
                       (10N18)

       Subject:        CBOC and PCC Reviews of the West Texas VA Health
                       Care System, Big Spring, TX

             To:       Director, San Diego Office of Healthcare Inspections (54SD)

                       Director, Management Review Service (VHA 10AR MRS
                       OIG CAP CBOC)

       1.	 I concur with the attached facility responses and action plans
           detained in this draft report of the Community Based Outpatient
           Clinic and Primary Care Clinic Reviews of the West Texas VA
           Health Care System , Big Spring, TX.

       2. 	 If you have additional questions or concerns, please contact Robert
            Baum, VISN 18 Executive Officer to the Network Director, at
            (480) 397-2777.




VA OIG Office of Healthcare Inspections                                                      17
                        CBOC and PCC Reviews at West Texas VA Health Care System, Big Spring, TX
                                                                                    Appendix D
                            Facility Director Comments



               Department of
               Veterans Affairs 	                                Memorandum


           Date:       July 2, 2014

          From:        Director, West Texas Health Care System (519/00)

       Subject: 	      CBOC and PCC Reviews of the West Texas VA Health
                       Care System, Big Spring, TX

             To:       Director, VA Southwest Health Care Network (10N18)

       1. 	 I have reviewed and concur with the findings and recommendations
            in the draft report of the Office of Inspector General Community
            Based Outpatient Clinic and Primary Care Clinic Reviews
            conducted the week of May 13, 2014.

       2. 	 Corrective action plans have been established, with some being
            already implemented, and target completion dates have been set
            for the remaining items as detailed in the attached report.




            Michael L. Kiefer, MHA, FACHE
            Director




VA OIG Office of Healthcare Inspections                                                      18
                        CBOC and PCC Reviews at West Texas VA Health Care System, Big Spring, TX


                               Comments to OIG’s Report

The following Director’s comments are submitted in response to the recommendations
in the OIG report:

OIG Recommendations

Recommendation 1. We recommended that external signage clearly identifies the
building as a VA CBOC at the Fort Stockton CBOC.

Concur

Target date for completion: September 31, 2014

Facility response: The WTVAHCS has obtained temporary signage to clearly identify
the Fort Stockton CBOC as a VA Outreach Clinic.               The Contracting Officer
Representative (COR) will review and decide with the lessor and contracting officer a
time line for installation of the permanent sign. This recommendation shall be complied
with no later than the above identified target date.

Recommendation 2. We recommended that managers maintain a clean and
functioning environment of care at the Hobbs CBOC.

Concur

Target date for completion: December 31, 2014

Facility response: The Contracting Officer Representative (COR) notified the lessor of
the findings and recommendations for improvement in cleanliness at the Hobbs CBOC.
A designated Hobbs staff will monitor the facility and report deficiencies in cleanliness to
lessor upon each inspection. This will be reported to the Environment of Care (EOC)
Committee monthly.

Recommendation 3. We recommended that processes are improved to ensure review
of the hazardous materials inventory occurs twice within a 12-month period at the
Abilene, Fort Stockton, Hobbs, and San Angelo CBOCs.

Concur

Target date for completion: January 5, 2015

Facility response: The GEMS Coordinator and/or designee will review the hazardous
materials inventory twice within a 12-month period at the Abilene, Fort Stockton, Hobbs,
and San Angelo CBOCs and report to the EOC.

Recommendation 4. We recommended that managers ensure staff can access the
electronic version of the chemical inventory at the Abilene and San Angelo CBOCs.



VA OIG Office of Healthcare Inspections                                                      19
                        CBOC and PCC Reviews at West Texas VA Health Care System, Big Spring, TX


Concur

Target date for completion: December 31, 2014

Facility response: The process of accessing the electronic version of the chemical
inventory was reviewed. This training is part of the annual competencies for all
employees and is a part of New Employee Orientation. All staff will be trained on
accessing the electronic version of the chemical inventory at the Abilene and San
Angelo CBOCs. Documentation will be maintained on file with the Education
Department.

Recommendation 5. We recommended that processes are improved to ensure the
tracking of chemical inventories at the Abilene, Fort Stockton, Hobbs, and San Angelo
CBOCs.

Concur

Target date for completion: December 31, 2014

Facility response: The process for tracking chemical inventories has been reviewed and
improvements made. The GEMS Coordinator and/or designee will be responsible to
track chemical inventories at the Abilene, Fort Stockton, Hobbs, and San Angelo
CBOCs and report to the Environment of Care Committee monthly. This will be
recorded in the EOC monthly minutes.

Recommendation 6. We recommended that the effectiveness of the panic alarm
system is evaluated at the Abilene, Fort Stockton, Hobbs, and San Angelo CBOCs.

Concur

Target date for completion: December 31, 2014

Facility response: The process for the panic alarm system was reviewed and tested.
The LYNX panic alarm system in the Abilene, Fort Stockton, Hobbs, and San Angelo
CBOCs has been systematically tested for effectiveness. It has been verified that the
system functions appropriately even when the computer is locked. All CBOC staff will
be trained on this process, and the training documented and recorded in the employee’s
competency folder.

Recommendation 7. We recommended that a separate room is provided to store
medical (infectious) waste at the Hobbs CBOC.

Concur

Target date for completion: Completed




VA OIG Office of Healthcare Inspections                                                      20
                        CBOC and PCC Reviews at West Texas VA Health Care System, Big Spring, TX


Facility response: A room has been designated at the Hobbs CBOC, to be specifically
utilized to store medical (infectious) waste. The Hobbs staff has been informed of the
process for storage of medical waste.

Recommendation 8. We recommended that fire drills are performed every 12 months
at the Abilene, Fort Stockton, Hobbs, and San Angelo CBOCs.

Concur

Target date for completion: August 31, 2014

Facility response: The process for fire drills performed at the Abilene, Fort Stockton,
Hobbs, and San Angelo CBOCs has been reviewed. The Safety Officer and/or
designee will conduct and document fire drills every 12 months. A report of fire drills will
be maintained at each CBOC by the CBOC Nurse Manager or designee and also
maintained by the Safety Officer. Fire drills will be reported to the EOC Committee.

Recommendation 9. We recommended that managers ensure that personally
identifiable information is protected by securing laboratory specimens during transport
from the Abilene and San Angelo CBOCs to the parent facility.

Concur

Target date for completion: Completed

Facility response: Locked coolers with ice packs are provided to the Abilene and San
Angelo CBOCs. Only staff placing specimens into cooler and staff at the main facility
have a key to place and remove specimens. This secures all laboratory specimens
during transport to the parent facility. The documentation of lab specimens sent by the
CBOCs and received by the main facility is reconciled daily by the Lab Manager and/or
designee, and is not accessible to transporting courier.

Recommendation 10. We recommended that the door to the examination room
designated for women veterans is equipped with electronic or manual locks at the Fort
Stockton CBOC.

Concur

Target date for completion: September 31, 2014

Facility response: The COR has notified lessor of the findings and recommendations for
improvement at the Fort Stockton CBOC. The COR and lessor are completing the
installation of the appropriate locks to the examination room designated for women
veterans. While awaiting the completion of the installation of locks, staff will guard the
exam room door to ensure privacy is maintained during a women’s health exam, and
will put a sign stating: “Exam in Progress, Do Not Enter”.




VA OIG Office of Healthcare Inspections                                                      21
                        CBOC and PCC Reviews at West Texas VA Health Care System, Big Spring, TX


Recommendation 11. We recommended processes are strengthened to ensure
women veterans can access gender-specific restrooms without entering public areas at
the Fort Stockton CBOC.

Concur

Target date for completion: September 1, 2014

Facility response: The COR has notified lessor of the findings and recommendations for
building improvements at the Fort Stockton Outreach Clinic. Pending building
modifications, staff will ensure the women veterans are given the opportunity to use the
restroom prior to disrobing for examination and post examination.

Recommendation 12. We recommended that the information technology server
closets at the Abilene, Fort Stockton, Hobbs, and San Angelo CBOCs are maintained
according to information technology safety and security standards.

Concur

Target date for completion: Completed

Facility response: Access to the IT network/room/server closet at the Abilene, Fort
Stockton, Hobbs, and San Angelo CBOCs is restricted to personnel authorized by OI&T
and is behind locked doors. Only authorized personnel now have access and have
been issued keys. A list of authorized personnel is posted on the door and a log has
been placed in the closet and is to be signed by those entering the closet.

Recommendation 13. We recommended that the parent facility document Emergency
Management Preparedness-specific training completed by the West Texas VA Health
Care System CBOC clinical providers.

Concur

Target date for completion: August 25, 2014

Facility response: Emergency Management Preparedness - specific training will be
completed by the WTVAHCS CBOC clinical providers. Documentation of training will
be provided upon completion and maintained by the Education Department.

Recommendation 14. We recommended that CBOC/Primary Care Clinic staff
consistently complete diagnostic assessments for patients with a positive alcohol
screen.

Concur

Target date for completion: November 30, 2014




VA OIG Office of Healthcare Inspections                                                      22
                        CBOC and PCC Reviews at West Texas VA Health Care System, Big Spring, TX


Facility response: The screening nurse will provide a report to the physician when the
Audit C reminder is positive. This will assist to ensure that the diagnostic assessments
are completed for all veterans with a positive alcohol screen. The Outpatient Nurse
Managers will communicate with assigned PACT teams and monitor for completion of
the follow up reminder. The nurse managers will audit 20 charts total for the
CBOCs/PCCs monthly. The outcome will demonstrate 90 percent compliance for three
consecutive months and will be sustained thereafter. This will be reported to the Quality
Executive Board monthly.

Recommendation 15. We recommended that CBOC/Primary Care Clinic staff provide
education and counseling for patients with positive alcohol screens and drinking alcohol
above National Institute on Alcohol Abuse and Alcoholism limits.

Concur

Target date for completion: November 30, 2014

Facility response: The clinic staff will provide education and counseling for patients with
positive alcohol screens and drinking alcohol above National Institute on Alcohol Abuse
and Alcoholism limits. The nurse managers will audit 20 charts total for CBOCs/PCCs
monthly for documentation that education and counseling was provided for patients with
positive alcohol screens. The outcome will demonstrate 90 percent compliance for
three consecutive months and will be sustained thereafter. This will be reported to the
Quality Executive Board monthly.

Recommendation 16. We recommended that CBOC/Primary Care Clinic staff
consistently document the offer of further treatment to patients diagnosed with alcohol
dependence.

Concur

Target date for completion: November 30, 2014

Facility response: The clinic staff will document the offer of further treatment to patients
diagnosed with alcohol dependence.             The follow up reminder captures the
documentation that further treatment is offered. The nurse managers will audit
20 charts total for the CBOCs/PCCs monthly for documentation that the offer of further
treatment to patients diagnosed with alcohol dependence occurred. The outcome will
demonstrate 90 percent compliance for three consecutive months and will be sustained
thereafter. This will be reported to the Quality Executive Board (QEB) monthly.

Recommendation 17. We recommended that managers ensure that patients with
excessive persistent alcohol use receive brief treatment or are evaluated by a specialty
provider within 2 weeks of the screening.

Concur

Target date for completion: November 30, 2014


VA OIG Office of Healthcare Inspections                                                      23
                        CBOC and PCC Reviews at West Texas VA Health Care System, Big Spring, TX


Facility response: The Outpatient Nurse Manager will ensure that patients with
excessive persistent alcohol use are offered brief treatment or are offered an evaluation
by a specialty provider within 2 weeks of the screening by using motivational
interviewing and health coaching. The Outpatient Nurse Managers will communicate
with assigned PACT teams and monitor for completion of the follow up reminder.
Education will be provided during PACT meetings on proper way to complete reminder
data. The Outpatient Nurse Managers will audit 20 charts total for the CBOCs/PCCs
monthly for documentation that treatment or evaluation by a specialty provider occurred
within 2 weeks of the screening. The outcome will demonstrate 90 percent compliance
for three consecutive months and will be sustained thereafter. This will be reported to
the Quality Executive Board (QEB) monthly.

Recommendation 18. We recommended that CBOC/Primary Care Clinic Registered
Nurse Care Managers receive health coaching training within 12 months of appointment
to Patient Aligned Care Teams.

Concur

Target date for completion: November 30, 2014

Facility response: PACT staff will receive health coaching training within 12 months of
appointment (Motivational Interviewing and TEACH training) to a team. This training will
be documented and maintained by the employee supervisors.

Recommendation 19.        We recommended that staff document that medication
reconciliation was completed at each episode of care where the newly prescribed
fluoroquinolone was administered, prescribed, or modified.

Concur

Target date for completion: October 31, 2014

Facility response: The WTVAHCS updated the Provider Note template and the History
and Physical template to ensure medication reconciliation is completed with each
episode of care where the newly prescribed fluoroquinolone was administered,
prescribed, or modified. The provider is prompted prior to closing the visit note to
complete the medication reconciliation for all medications the patient is taking or started
on during the visit. The Administrative Officer for Ambulatory Care Services will audit
10 charts monthly to monitor for completion of the medication reconciliation process
where a newly prescribed flouroquinolone was administered, prescribed, or modified.
The results will be reported to the Pharmacy and Therapeutics Committee, who in turn
will report to Medical Executive Board. A 90 percent compliance rate will be achieved
for three months with continued sustainment of compliance.

Recommendation 20.           We           recommended      that   staff   provide   medication
counseling/education as required.

Concur


VA OIG Office of Healthcare Inspections                                                      24
                        CBOC and PCC Reviews at West Texas VA Health Care System, Big Spring, TX


Target date for completion: October 31, 2014

Facility response: Pharmacy collaborated with the Office of Information and Technology
(OI&T) to set up a process that notifies pharmacy staff that a fluoroquinolone has been
ordered and action is required. When the drug is filled an alert is triggered that notifies
pharmacy staff to provide the FDA patient health information in the patient’s education
packet. Pharmacy will conduct random sampling of 10 fluoroquinolones a month to
ensure 90 percent compliance for three months. This will be tracked and reported
monthly to the Pharmacy and Therapeutic (P& T) Committee.

Recommendation 21. We recommended that staff document the evaluation of
patient’s level of understanding for the medication education.

Concur

Target date for completion: October 31, 2014

Facility response: The WTVAHCS updated the Provider Note template and the History
and Physical template to ensure the evaluation of a patient’s level of understanding for
medication education is completed with each episode of care. The provider is now
prompted prior to closing the visit note to complete the patient’s level of understanding
for the medication education that is provided. The Administrative Officer for Ambulatory
Care Services will audit 10 charts monthly to monitor completion of the patient’s level of
understanding for the medication education. The results will be reported to the P & T
Committee, who in turn will report to Medical Executive Board. The goal is for
90 percent compliance for three months with continued sustainment of compliance.




VA OIG Office of Healthcare Inspections                                                      25
                        CBOC and PCC Reviews at West Texas VA Health Care System, Big Spring, TX
                                                                                    Appendix E


                 OIG Contact and Staff Acknowledgments
Contact                 For more information about this report, please contact the OIG
                        at (202) 461-4720.
Onsite                  Mary Toy, RN, MSN
Contributors            Jennifer Reed, RN, MSHI
Other                   Lin Clegg, PhD
Contributors            Matt Frazier, MPH
                        Deborah Howard, RN, MSN
                        Derrick Hudson
                        Jeff Joppie, BS
                        Judy Montano, MS
                        Glen Pickens, RN, MHSM
                        Victor Rhee, MHS
                        Patrick Smith, M., Stat
                        Marilyn Stones, BS
                        Katrina Young, RN, MSHL
                        Jarvis Yu, MS




VA OIG Office of Healthcare Inspections                                                      26
                        CBOC and PCC Reviews at West Texas VA Health Care System, Big Spring, TX
                                                                                    Appendix F

                                   Report Distribution
VA Distribution

Office of the Secretary
Veterans Health Administration
Assistant Secretaries
General Counsel
Director, VA Southwest Health Care Network (10N18)
Director, West Texas Health Care System (519/00)

Non-VA Distribution

House Committee on Veterans’ Affairs
House Appropriations Subcommittee on Military Construction, Veterans Affairs, and
 Related Agencies
House Committee on Oversight and Government Reform
Senate Committee on Veterans’ Affairs
Senate Appropriations Subcommittee on Military Construction, Veterans Affairs, and
 Related Agencies
Senate Committee on Homeland Security and Governmental Affairs
National Veterans Service Organizations
Government Accountability Office
Office of Management and Budget
U.S. Senate: John Cornyn, Ted Cruz, Martin Heinrich, Tom Udall
U.S. House of Representatives: K. Michael Conaway, Pete Gallego,
 Randy Neugebauer, Beto O’Rourke, Steve Pearce, Mac Thornberry


This report is available at www.va.gov/oig.




VA OIG Office of Healthcare Inspections                                                      27
                            CBOC and PCC Reviews at West Texas VA Health Care System, Big Spring, TX
                                                                                        Appendix G

                                                   Endnotes 


a
    References used for the EOC review included:
	 US Access Board, Americans with Disabilities Act Accessibility Guidelines (ADAAG), September 2, 2002.
	 US Department of Health and Human Services, Health Insurance Portability and Accountability Act, The
     Privacy Rule, August 14, 2002.
	 US Department of Labor, Occupational Safety and Health Administration, Laws and Regulations.
	 US Department of Labor, Occupational Safety and Health Administration, Guidelines for Preventing Workplace
   Violence, 2004.
	 Joint Commission, Joint Commission Comprehensive Accreditation and Certification Manual, July 1, 2013.
	 VA Directive 0324, Test, Training, Exercise, and Evaluation Program, April 5, 2012.
	 VA Directive 0059, VA Chemicals Management and Pollution Prevention, May 25, 2012.
	 VA Handbook 6500, Risk Management Framework for VA Information System, September 20, 2012.
	 VHA Center for Engineering, Occupational Safety, and Health, Emergency Management Program Guidebook,
   March 2011.
	 VHA Center for Engineering, Occupational Safety, and Health, Online National Fire Protection Association
   Codes, Standards, Handbooks, and Annotated Editions of Select Codes and Standards, July 9, 2013.
	 VHA Deputy Under Secretary for Health for Operations and Management, Memorandum: Environmental
   Rounds, March 5, 2007.
	 VHA Directive 2011-007, Required Hand Hygiene Practices, February 16, 2011.
	 VHA Directive 2012-026, Sexual Assaults & Other Defined Public Safety Incidents in VHA Facilities,
   September 27, 2012.
	 VHA Handbook 1006.1, Planning and Activating Community-Based Outpatient Clinics, May 19, 2004.
	 VHA Handbook 1330.01, Health Care Services for Women Veterans, May 21, 2010.
	 VHA Handbook 1850.05, Interior Design Operations and Signage, July 1, 2011.
b
  References used for the AUD review included:
	 National Center for Health Promotion and Disease Prevention (NCP), Veteran Health Education and Information
   (NVEI) Program, Patient Education: TEACH for Success. Retrieved from
   http://www.prevention.va.gov/Publications/Newsletters/2013/HealthPOWER_Prevention_News_Winter_2012_2
   013_FY12_TEACH_MI_Facilitator_Training.asp on January 17, 2014.
	 VHA Handbook 1120.02, Health Promotion Disease Prevention (HPDP) Program, July 5, 2012.
	 VHA Handbook 1160.01, Uniform Mental Health Services in VA Medical Centers and Clinics,
   September 11, 2008.
c
  References used for the Medication Management review included:
	 VHA Directive 2011-012, Medication Reconciliation, March 9, 2011.
	 VHA Directive 2012-011, Primary Care Standards, April 11, 2012.
	 VHA Handbook 1108.05, Outpatient Pharmacy Services, May 30, 2006.
	 VHA Handbook 1108.07, Pharmacy General Requirements, April 17, 2008.
	 Joint Commission, Joint Commission Comprehensive Accreditation and Certification Manual, July 1, 2013.
d
  References used for the DWHP review included:
	 VHA Deputy Under Secretary for Health for Operations and Management, Memorandum: Health Care Services
   for Women Veterans, Veterans Health Administration (VHA) Handbook 1330.01; Women’s Health (WH)
   Primary Care Provider (PCP) Proficiency, July 8, 2013.
	 VHA Handbook 1330.01 Health Care Services for Women Veterans, May 21, 2010.
	 VHA Handbook 1100.19, Credentialing and Privileging, November 14, 2008.
e
  Reference used for PACT Compass data graphs:
	 Department of Veterans’ Affairs, Patient Aligned Care Teams Compass Data Definitions, August 29, 2013.




VA OIG Office of Healthcare Inspections                                                                    28
